           SENSITIVE BUT UNCLASSIFIED

       United States Department of State
     and the Broadcasting Board of Governors
               Ofﬁce of Inspector General




                 Report of Inspection

     U.S. Speaker and
 Specialist Program Review
 Bureau of International
  Information Programs
Report Number ISP-C-06-52, September 2006




                             IMPORTANT NOTICE
 This report is intended solely for the ofﬁcial use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
 in whole or in part, outside the Department of State or the Broadcasting Board of
 Governors, by them or by other agencies or organizations, without prior authorization
 by the Inspector General. Public availability of the document will be determined by
 the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
 this report may result in criminal, civil, or administrative penalties.




           SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



                                TABLE OF CONTENTS



KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
EXECUTIVE DIRECTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
POLICY AND PROGRAM IMPLEMENTATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
           CONGRESSIONAL INQUIRY - SP EAKER SELECTION PROCESS . . . . . . . . . . . . . . . . . . . . . 7
           STRATEGIC SP EAKERS INITIATIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
           SP EAKERS EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
RESOURCE MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
           RESOURCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
PRINCIPAL OFFICIALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21




                       SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                              KEY JUDGMENTS

    •   In response to a Congressional request, the Ofﬁce of Inspector General
        (OIG) examined whether there was a “litmus test” for speaker selection in
        the U.S. Speaker Specialist Program. OIG determined that no such test
        exists.

    •    In the past, there was undue attention to the speaker selection process,
        resulting in Bureau of International Information Programs (IIP) staff self-
        censorship in the vetting and selection of speakers.

    •   Current public diplomacy leadership in the Department of State (Depart-
        ment) has changed the intent of vetting speakers and places emphasis on a
        realistic balance in the selection of speakers.

    •   The Strategic Speakers Initiative (SSI) is a new concept with great potential
        and should continue as a more focused stand-alone program to allow
        articulation on strategic policy issues.

    •   There is a continuing need for the development of a speakers’ evaluation
        matrix that can be the basis for program analysis and a management tool at
        all levels.

    •   Many individuals within IIP continue to view themselves as separate from
        the Department, which has an adverse impact on maximizing the U.S.
        Speaker and Specialist Program potential.

    •   The IIP nonbureaucratic structure (coordinator and deputy coordinators in
        lieu of assistant secretary and deputy assistant secretaries) continues to
        have an adverse impact on the effective conduct and coordination of IIP
        public diplomacy services and programs. As recommended in OIG’s 2004
        inspection report, the Department should consult with Congress on IIP’s
        structure. Action has been transferred to the Under Secretary for Public
        Diplomacy and Public Affairs.

   The review took place in Washington, DC, between July 10 and August 4, 2006.
James Dandridge (team leader) and Marjorie Lynch conducted the inspection.



OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006   1 .


                      SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




2 .   OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


               SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                                       CONTEXT

    IIP engages international audiences on issues of foreign policy, society, and
values to create an environment that can be receptive to U.S. national interests. In
order to accomplish this, IIP provides leadership to the Department, the ﬁeld, and
the interagency community to develop and implement public diplomacy strategies
that inﬂuence international audiences through quality programs and cutting edge
technologies.

    IIP communicates with foreign opinion makers and other publics through a wide
range of print and electronic outreach materials published in English, Arabic, Chi-
nese, French, Persian, Russian, and Spanish. IIP also provides information outreach
support to U.S. embassies and consulates in more than 140 countries worldwide.

    The U.S. Speaker and Specialist program is the largest of 11 programs that repre-
sent a mix of products and services to engage foreign public opinion. The program
enables communication between individual U.S. citizens, who represent a broad
range of responsible and informed opinion in the United States, and key foreign
audiences. The program awards grants to U.S. experts to present lectures, serve as
consultants, or conduct workshops and seminars for professional audiences. The
program applies the intellectual and creative competence of those U.S. citizens to
public diplomacy issues identiﬁed by U.S. missions abroad through the Mission Per-
formance Plan (MPP) process. Participants travel to one or more foreign countries
or participate in an electronic audio or videoconference. To maximize this beneﬁt,
the program maintains an active commitment to casting as wide a net as possible to
attract new participants.

    In FY 2005, 731 U.S. speakers traveled throughout countries in all regions to
conduct around 1,000 programs. Speakers in Washington, DC, and other parts of
the United States appeared in 480 digital videoconferences and 15 telepress confer-
ences.

    Although IIP provides a series of important public diplomacy services and
products, it is not listed in the Foreign Affairs Manual (FAM) 1-series as an integral
foreign affairs bureau in the Department. Its leadership structure is designated as
coordinator, principal deputy coordinator, and deputy assistant coordinators in lieu
of the usual assistant secretary and deputy assistant secretary structure.


OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006   3 .


                      SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




4 .   OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


               SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                      EXECUTIVE DIRECTION

    IIP has undergone several permutations under a series of leaders since its incep-
tion in 1994 when it was part of the former U.S. Information Agency. Its unique
structure, combined with its remote location from the Department, has detracted
from of its important role in the Department’s diplomatic activities. OIG’s July 2004
inspection report, ISP-I-04-31, recommended that the Department confer with Con-
gress to bring IIP’s structure in line with the rest of the Department by designating
the IIP leadership as assistant secretary and deputy assistant secretaries. The con-
tinued use of the designations of coordinator and deputy coordinators is perceived,
rightly or not, as implying less than equal standing among Department bureaus. This
impedes the acceptance of its products and services within the Department.

    IIP has been the victim of frequent transitional leadership. Staff morale was
not enhanced with the uncertainty of the in-and-out ﬂow of coordinators and act-
ing coordinators. A past coordinator established his ofﬁce in the Harry S Truman
building in order to be “near the action.” Although his intentions were to have an
IIP presence in the main Department building and boost the bureau’s visibility, this
had a deleterious impact on the IIP staff. Many of the staff neither knew nor could
recognize him.

     The current Department leadership has designated an acting IIP coordina-
tor who has established his ofﬁce in SA-44 along with the rest of the bureau. The
immediate positive impact is perceptible. He has set about realigning the bureau
around its services and products rather than, as in the past, attempting to conﬁgure
programs around a dysfunctional structure. He is making a major change in the U.S.
Speaker and Specialist Program by bringing all of its disparate components into one
ofﬁce within the bureau. He has the complete support of the current public diplo-
macy leadership, which is enabling him to bring in an experienced senior ofﬁcer to
realign the operations of the important speakers program.

    Many speaker staff believed they were previously operating in an atmosphere of
undue caution, resulting in self-censorship in the speakers’ program selection pro-
cess, as detailed in this report. The current ofﬁce of the Under Secretary for Public
Diplomacy and Public Affairs (R) allows the professional operations of the capable
speakers staff to operate without undue external inﬂuence in its day-to-day activities.




OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006   5 .


                      SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED




6 .   OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


               SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                        POLICY AND PROGRAM
                         IMPLEMENTATION


CONGRESSIONAL INQUIRY - SPEAKER SELECTION PROCESS
    OIG received a Congressional inquiry expressing concern with the observations
and recommendations in OIG’s 2004 inspection report on the U.S. Speaker and
Specialist Program. The inquiry further requested a review of a press report’s allega-
tions of the Department’s use of an “ideological litmus test to screen speakers” in
the U.S. Speaker and Specialist Program.

     Past R leadership questioned some speakers’ ideological credentials, less than ﬁve
out of more than 1,000 speaker programs, and this contributed to a series of inter-
nal IIP management reactions. These reactions were manifested in some cases in
poor management decisions that inﬂuenced the speaker selection processes during a
period of heightened national security concerns. Although there were no expressed
or established “ideological litmus tests,” or “black or white lists,” an atmosphere of
extreme caution and self-censorship in the selection processes was created. Previous
IIP management had encouraged the speakers program to employ “due diligence” in
its selection of speakers. This meant vetting speaker candidates’ public statements or
publications that appeared to run counter to Administration policies. Several speaker
program ofﬁcers and reference specialists did so regardless of whether speaker
candidates’ personal opinions had a bearing on the topical issues for which they were
being considered for recruitment. Others, in an effort to maintain “balance” unreal-
istically, suggested recommending two ideologically different speakers for a program
in which only one speaker had been requested.

     The operative regulations –10 FAM 688.2-1.a – used during this period, clearly
stated that speakers should be “selected on the basis of the quality of their creden-
tials, their ability to communicate, and the relevance of their potential contributions
to mission performance plan objectives, they are not limited to the expression of
U.S. government policies.” Although some IIP employees were acting on the mar-
gins of this proviso, there was no ideological motivation; rather, it was done in an at-
tempt to “maintain program balance.” Nevertheless, it resulted in virtual censorship
in the speaker selection process.


OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006   7 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED

          The current public diplomacy leadership expressly conveyed support for a
      “realistic balanced selection of speakers representing a diversity of opinion on policy
      issues” to the acting coordinator upon his assumption of the position in December
      2005. The acting coordinator has committed to convey this to every ofﬁcer respon-
      sible for communication products and services throughout the bureau. He also
      agreed that the ongoing realignment of the speakers program provides an opportu-
      nity to start with a fresh slate for the U.S. Speaker and Specialist Program.



          Recommendation 1: The Bureau of International Information Programs
          should issue a written policy statement and guidelines for the selection of
          speakers based on the quality of their credentials, their ability to communicate,
          and the relevance of their potential contributions to mission performance plan
          objectives regardless of their personal opinions on policy issues. (Action: IIP)




          Philosophical differences exist over the responsibility for the U.S. Speaker and
      Specialist Program. Several ofﬁcers in IIP said that the speakers program is an IIP
      program executed by the missions with ﬁnal approval authority resting with IIP.
      On the other hand, previous 10 FAM 688.1-a, and current 10 FAM 353.1 state that
      programs are driven by issues identiﬁed by U.S. missions abroad. The FAM sup-
      ports the concept of the bureau providing services and product support to missions
      through their MPP processes. The IIP speakers’ manual quotes 10 FAM 688.2-1.c,
      “The ﬁnal decision to program a candidate [speaker] always rests with the mission.”1
      Yet, in the same manual, it contradicts itself by stating, “...the ﬁnal decision to accept
      the speaker always rests with IIP.”2 This latter interpretation supports the stated
      belief by several IIP employees that Washington, and not the missions, strictly con-
      trols IIP’s products and services. Several employees also stated, “We make the ﬁnal
      decision on the use of our I-Bucks [IIP allocations for products and services], and if
      they [the missions] want to use somebody else [speakers] then they can pay for it out
      of their own government operating expenses.” These philosophical misunderstand-
      ings reﬂect a need for closer coordination between IIP and the regional bureaus for
      more consistency and seamless conduct of the U.S. Speaker and Specialist Program
      in support of the MPP processes at missions.




      1
      The U.S. Speaker and Specialist Program: Section II. Selection - Recruitment
      2
      The U.S Speaker and Specialist Program: Section IV. Process:IIP/T - Recruitment


8 .         OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




   Recommendation 2: The Bureau of International Information Programs
   should include the regional bureaus in the redesign and realignment of the U.S.
   Speaker and Specialist Program to ensure coordinated delineation of responsi-
   bilities between the missions and the bureau. (Action: IIP)




STRATEGIC SPEAKERS INITIATIVE
    OIG’s 2004 inspection report noted that the current speaker selection processes
in place at that time precluded adequate strategic focus of the U.S. Speaker and
Specialist Program to more proactively address policy issues (Recommendation 27).
OIG recommended a senior level review to ensure that the program meets the needs
of policy articulation at missions abroad.

    In response, the principal deputy coordinator convened a task force of senior
leadership and IIP managers of the speakers program. Task force members con-
sulted with all of the public diplomacy stakeholders in the Department, other U.S.
government agencies, and private sector experts on program direction and content.
Stakeholders were highly satisﬁed with the current model of recruiting speakers in
response to MPP goals but welcomed the bureau’s increasing emphasis on identify-
ing themes and individuals who could focus on strategic policy issues.

    IIP, in close coordination with R staff, conceptualized a strategic focus for the
speakers program in November 2005. The idea was to better align the annual 1,000
traveling and electronic speaker programs with the Secretary’s strategic policy goals.
The original concept was to:

    •    Identify ﬁve to ten core strategic themes supporting the President’s free-
        dom agenda and other foreign policy priority objectives;

    •   Identify high-proﬁle countries on selected themes;

    •   Focus on high-priority countries and regions, tailoring program efforts to
        simultaneously fulﬁll local and Administration needs; and

    •   Reallocate a portion of speaker program funds from individual missions.




OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006   9 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           In February 2006, IIP asked regional bureaus to participate in the pilot Strategic
       Speakers Initiative (SSI), an initiative of R. The idea was to strengthen collaboration
       between IIP and the regional bureaus in planning and executing the bureau’s single
       largest program. Regional bureaus’ missions were asked to “...think big–we want
       the SSI to have an impact in your country that goes beyond the ordinary.” Missions
       were also told that SSI would be centrally funded by IIP and would not draw on the
       existing I-Bucks (IIP budgets for the missions). There were 146 separate program
       requests. Approximately a quarter of the requests were for prominent names: Tom
       Friedman, J.C. Watts, Oprah Winfrey, Jimmy Carter, Bill Gates, John McCain, Colin
       Powell, Al Gore, James Baker, Richard Lugar, to name a few.

            The program was launched in April 2006, in the middle of the program year.
       According to revised budget allocations, 25 percent of the U.S. Speaker and Special-
       ist Program funding was immediately set aside from the IIP budget for SSI. This
       amounted to about $1.2 million. Although the amount set aside was supposedly
       taken exclusively from the speakers program, it was in fact from the total I-Bucks
       allocation for all IIP products and services support at missions, which included the
       U.S. Speaker and Specialist Program. As seen in the table below, $1,182,465 was
       allocated for SSI (funds set aside), but only $353,721 had been obligated for SSI
       programs by July 21, 2006. Subsequent to this examination of the I-Bucks alloca-
       tions, IIP stated that it expects to have 90 SSI programs (each averaging $10,193) by
       the end of the ﬁscal year for a total of $917,370. IIP also stated that it has obligated
       $30,000 for Citizen Dialogues (a subcomponent of SSI) for Europe, plus $40,000 for
       pending Citizen Dialogues for South and Central Asia. IIP’s anticipated obligation
       by the end of the ﬁscal year is $987,000.

                     IIP I-BUCK ALLOCATIONS (FY 2006 Funding in Dollars)

       Geographic                Initial      25%                      Final              SSI
       Area Office               Base         Realignment              Allocations        Obligations
                                 Allocations For SSI                                     (As of 7/21/06)
       AF                        942,016      (235,504)                 706,512           113,594
       EAP                       956,615      (239,154)                 717,461            88,811
       EUR                     1,229,804      (307,451)                  922,353            58,437
       NEA                       480,898    (120,224)                 360,674            25,849
       SA                        354,433       (88,608)                  265,825           10,858
       WHA                       766,096      ( 191,524)                 574,572            56,172
       Totals                  4,729,862     (1,182,465)                3,547,397 3        353,721


       3
       *Strategic Speaker Initiative. **30,000 earmarked for Libya was not taxed for SSI.



10 .        OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



     This program is still in its infancy, having been launched in the middle of the
current program year. So far none of the proposed high-level personalities has been
recruited. Nevertheless, missions were willing to reach into their mission budgets to
support such initiatives if “out of the ordinary” speakers were recruited. The real-
ity is the current SSI speakers’ selection is operating from within the standard U.S.
Speaker and Specialist Program list of speakers.

    The SSI concept is excellent and has great potential to provide the Department
with a ﬂexible tool for focused articulation of strategic policy issues. However,
although the concept was enthusiastically launched, detailed planning required for a
program of this magnitude and importance was omitted.

     SSI is still undergoing development and has been given a high priority within the
realigned U.S. Speaker and Specialist Program ofﬁce. The planning stages for this
important program are still needed:

    •   Reexamine and develop a limited list of Washington critical strategic issues;

    •   Identify and recruit high-level speaker participants;

    •   In coordination with regional bureaus, select a focused group of countries
        for each of the issues; and

    •   Set aside a smaller portion of the I-Bucks to continue a well thought out
        bridge pilot program in the next ﬁscal year.

     In the meantime, IIP should continue to bring the regional bureaus into the
ongoing planning processes in the U.S. Speaker and Specialist Program to allow for
closer coordination with the separate MPP driven program so that the programs are
mutually complementary.



   Recommendation 3: The Bureau of International Information Programs
   should research and plan the Strategic Speakers Initiative in coordination with
   regional bureaus and missions and continue a bridge pilot program in the next
   ﬁscal year with a smaller funding allocation. (Action: IIP)




OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006   11 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



       SPEAKERS EVALUATION
           While IIP tracks the impact of the U.S. Speaker and Specialist Program using
       a database known as RESULTS, more can be done to adapt RESULTS to a more
       meaningful management tool that would permit quantiﬁcation. The RESULTS da-
       tabase is web based and serves as a repository of public diplomacy activities and ac-
       complishments. Missions or Washington ofﬁces can make entries in narrative form.
       Reports can be generated using a variety of searches such as by country or type of
       program.

           IIP’s Ofﬁce of Strategic Communication is the lead for evaluating the programs,
       products, and activities of the bureau. Evaluations are conducted with reference to
       the Bureau Performance Plan, the Government Performance and Results Act, the
       President’s Management Agenda, and the Ofﬁce of Management and Budget’s Pro-
       gram Assessment Rating Tool. As such, it has responsibility for evaluating the U.S.
       Speaker and Specialist Program.

            The 2004 inspection report of the bureau recommended (Recommendation 28)
       developing a report format to evaluate the performance of individuals participating
       in the U.S. Speaker and Specialist Program. In the report’s discussion of the subject,
       a computer template that mission ofﬁcers could complete in 10 to 15 minutes was
       suggested. Reporting in RESULTS is not quantiﬁed, making comparisons between
       individual speakers and types of programs cumbersome. Moreover, composing the
       narrative entries is not a 10 to 15 minute process. The narrative descriptions do
       incorporate speciﬁc elements of how programs helped or did not help to achieve
       MPP goals. The reconstructed format does require uniform responses. Neverthe-
       less, there are 13 entries, six of which are in narrative format. They also serve a need
       for and have value in gaining an understanding of a speaker and/or a program for
       possible future use.

            To fully gauge program effectiveness, it is imperative to have a method of ac-
       cumulating and manipulating empirical data that can provide comparative results.
       Developing a template for the U.S. Speaker and Specialist Program, with a rating
       system giving numerical values within an established range to a series of criteria such
       as preparation, articulation, audience response, knowledge of subject matter, and
       others would be a useful management tool. Restructuring RESULTS to provide the
       extra dimension of quantiﬁcation would be beneﬁcial to IIP and for the Department
       at large. The U.S. Speaker and Specialist Program could be a pilot for possible later
       expansion to other public diplomacy programs and services.




12 .        OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




   Recommendation 4: The Bureau of International Information Programs
   should adapt its RESULTS database to incorporate a template permitting quan-
   tiﬁcation of critical data for the U.S. Speaker and Specialist Program. (Action:
   IIP)


     The RESULTS database is a valuable resource for IIP and the Department as
the only repository for Department-wide public diplomacy program reporting. IIP
is reviewing and questioning whether RESULTS is fulﬁlling its intent. IIP should
proceed with this review with the goal of strengthening its effectiveness as a univer-
sal reporting repository.




OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006   13 .


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




14 .   OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


                SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                    RESOURCE MANAGEMENT



RESOURCES

Bureau of International Information Programs Resources
Staffing 4
Civil Service                                                                                            213
Foreign Service                                                                                           54
Total                                                                                                    267

Funding
IIP Appropriation, direct                                                                         $22,697,000
IIP Appropriation, reimbursement                                                                      199,000
Foreign Affairs Reorganization Appropriation                                                        4,594,103
Information Technology Systems                                                                      1,860,432
Emergency Wartime Supplemental (FY 2003-04)                                                         2,550,000
Emergency Supplemental (FY 2002-03)                                                                 1,450,000
Freedom Support Act                                                                                   340,000
Support for Eastern European Democracy Programs                                                     1,413,315
Total                                                                                             $35,103,850


     Staff resources for the U.S. Speaker and Specialist Program are dispersed, and
employees answer to no one person or ofﬁce responsible for the entire program.
Employees are divided between thematic and geographic programs divisions. For
example, the thematic programs division is made up of ofﬁces devoted to a particu-
lar subject issue such as economic security and not to a program. In the meantime,
the geographic programs’ ofﬁces are devoted to a geographic region. The employ-
ees are then further subdivided between multiple ofﬁces within each of these major
divisions. Lastly, individuals within the ofﬁces often have responsibility for multiple
programs, only one of which may be the U.S. Speaker and Specialist Program. An
example of this is a geographic program ofﬁcer for a region, who also acts as a
mission’s liaison for all IIP programs, products, and services.

4
 Stafﬁng ﬁgures are incomplete in that they show only direct hire personnel. Information on
term appointments, students, interns, when actually employed staff, special government employ-
ees, and contractors was not provided.


 OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006             15 .


                       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




           Financial responsibility rests with the joint Bureau of Educational and Cultural
       Affairs/IIP executive ofﬁce, which maintains the ofﬁcial records. Within geographic
       programs, regional program ofﬁcers also keep cuff records to track fund allocations
       for countries within their portfolios. The clarity and completeness of these records
       vary.

           As discussed in the Executive Direction section of the report, the establish-
       ment of one ofﬁce with full responsibility for the entire U.S. Speaker and Specialist
       Program, which is included in the proposed realignment of IIP, will improve overall
       management of all aspects of the program including resources. Because of ongoing
       plans for the realignment, this report makes no recommendation regarding resource
       management. The uniﬁed ofﬁce is expected to address the weaknesses noted above.




16 .        OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




               FORMAL RECOMMENDATIONS

Recommendation 1: The Bureau of International Information Programs should
  issue a written policy statement and guidelines for the selection of speakers based
  on the quality of their credentials, their ability to communicate, and the relevance
  of their potential contributions to mission performance plan objectives regardless
  of their personal opinions on policy issues. (Action: IIP)

Recommendation 2: The Bureau of International Information Programs should
  include the regional bureaus in the redesign and realignment of the U.S. Speaker
  and Specialist Program to ensure coordinated delineation of responsibilities be-
  tween the missions and the bureau. (Action: IIP)

Recommendation 3: The Bureau of International Information Programs should
  research and plan the Strategic Speakers Initiative in coordination with regional
  bureaus and missions and continue a bridge pilot program in the next ﬁscal year
  with a smaller funding allocation. (Action: IIP)

Recommendation 4: The Bureau of International Information Programs should
  adapt its RESULTS database to incorporate a template permitting quantiﬁcation
  of critical data for the U.S. Speaker and Specialist Program. (Action: IIP)




OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006   17 .


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




18 .   OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                        PRINCIPAL OFFICIALS

Position                                               Name                                   Arrival
Coordinator                                            Jeremy Curtin (Acting)                  12/05
Principal Deputy Coordinator                           Jeremy Curtin                           12/05
Deputy Coordinator/Thematic Programs                   Judith Siegel                           10/99
Deputy Coordinator/Geographic Programs                 Janet Garvey                            06/06
Ofﬁce Director/Strategic Communications                Joel Fischman (Acting)                  07/05




OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006      19 .


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




20 .   OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006


                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




                               ABBREVIATIONS


Department                    Department of State
I-Bucks                       IIP Products and Services Post Budget
IIP                           Bureau of International Information Programs
MPP                           Mission Performance Plan
OIG                           Ofﬁce of Inspector General
R                             Under Secretary for Public Diplomacy and Public
                              Affairs
SSI                           Strategic Speakers Initiative




OIG Report No. ISP-C-06-52, U.S.Speaker & Specialist Program Review Bureau of IIP - September 2006   21 .


                      SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
